                                    DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           March 29, 2013


         OIG-CA-13-006

         The Honorable Henry A. Waxman
         Co-Chair, Bicameral Task Force on Climate Change
         Ranking Member, Committee on Energy and Commerce
         U.S. House of Representatives

         The Honorable Sheldon Whitehouse
         Co-Chair, Bicameral Task Force on Climate Change
         Chairman, Subcommittee on Oversight
         Committee on Environment and Public Works
         United States Senate

         The Honorable Edward J. Markey
         Co-Chair, Bicameral Task Force on Climate Change
         Ranking Member, Committee on Natural Resources
         U.S. House of Representatives

         The Honorable Benjamin L. Cardin
         Co-Chair, Bicameral Task Force on Climate Change
         Chairman, Subcommittee on Water and Wildlife
         Committee on Environment and Public Works
         United States Senate

         Dear Mr. Waxman, Senator Whitehouse, Mr. Markey, and Senator Cardin:

         This letter and its enclosure responds to your February 25, 2013, two-part request
         for information concerning the Department of the Treasury’s (Treasury) efforts to
         confront the growing threat of climate change. We performed a review of
         Treasury’s relevant programs and operations for which we have oversight
         responsibility. We coordinated our review with the Treasury Inspector General for
         Tax Administration, who received a similar request and has the oversight
         responsibility for the Internal Revenue Service (IRS). Although we planned to focus
         on Treasury’s efforts to address climate change for the non-IRS programs and
         operations, we found that Treasury’s authorities are centralized within the Office of
         Environmental Health and Safety and do not delineate between Treasury’s offices
         and bureaus.
Page 2

In preparing this response, we (1) reviewed applicable statutes, executive orders,
policy, and guidance relevant to addressing the threat of climate change;
(2) requested, obtained, and reviewed other relevant information and
documentation from Treasury; and (3) interviewed Treasury officials responsible for
addressing the growing threat of climate change. As a courtesy, we provided the
Treasury officials with a draft of this letter and its enclosure and considered their
comments as we prepared the final document.

Based on our review of relevant documents and interviews, we found that Treasury
acknowledges that climate change will be one of the major challenges of the 21st
century and understands that certain aspects of its operations and mission could be
impacted by expected changes in regional climate conditions throughout the United
States. Additionally, Treasury is taking a comprehensive approach to climate
change that incorporates new knowledge and changing conditions into its missions,
facility operations, and programs to adapt to a changing climate. In this regard,
Treasury has demonstrated a commitment to leadership in environmental
stewardship and complying with environmental and energy statutes, executive
orders, and regulations.

The Treasury Strategic and Sustainability Performance Plan, issued June 2012, put
forth the following priorities for Treasury offices and bureaus:

    •   Achieve an investment target of $9.5 million in performance-based contracts
        for federal building energy upgrades by the end of calendar year 2013 1

    •   Follow through on energy reduction projects throughout Treasury to ensure
        that aggressive goals for reducing greenhouse gas (GHG) emissions are met
        by 2020.

    •   Implement a recycling system at the Bureau of Engraving and Printing’s
        Washington, DC, facility to save 12 million gallons of potable water annually

    •   Integrate the social cost of carbon into budget allocation to ensure
        appropriate consideration when projects are selected for funding

    •   Improve the life cycle environmental management of electronic assets




1
 Presidential Memorandum, “Implementation of Energy Savings Projects and Performance-Based
Contracting for Energy Savings” (issued Dec. 2, 2011), directed federal agencies to enter into
performance-based contracts over the next 2 years for federal building energy upgrades with a
government-wide minimum of $2 billion. Treasury’s commitment is $9.5 million.
Page 3

Among its recent accomplishments, Treasury reported that it:

    •   Received the Leadership in Energy and Environmental Design (LEED) Gold
        Certification for the Main Treasury Building which the U.S. Green Building
        Council believes is the oldest building in the world to achieve LEED
        certification;

    •   Reduced greenhouse gas (GHG) emissions from the 2008 baseline by 20
        percent for Scopes 1 and 2 and 8.5 percent for Scope 3 placing Treasury
        ahead of planned GHG reductions by fiscal year 2020; 2

    •   Increased renewable electricity use by 11 percent;

    •   Reduced fleet petroleum use by 61 percent using a 2005 baseline; and

    •   Installed an electric vehicle charging station at the Main Treasury Building for
        charging newly acquired electrical vehicles and for use by other federal
        agencies.

We would be pleased to brief you or members of your staff on this response or any
other work under our respective or joint jurisdictions. If you have any questions,
you may contact me at (202) 622-1090, or a member of your staff may contact
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

                                      Sincerely,



                                      /s/

                                      Eric M. Thorson
                                      Inspector General

Enclosure


2
  GHG emissions are classified into three “scopes,” based on source of emissions: Scope 1
emissions are direct GHG emissions from sources owned or controlled by an entity; Scope 2
emissions are indirect GHG emissions resulting from the generation of electricity, heating and
cooling, or steam generated off site but purchased by the entity, and the transmission and
distribution (T&D) losses associated with some purchased utilities; and Scope 3 emissions include
indirect GHG emissions from sources not owned or directly controlled by the entity but related to
the entity’s activities. Scope 3 GHG emission sources currently required for federal GHG reporting
include T&D losses associated with purchased electricity, employee travel and commuting,
contracted solid waste disposal, and contracted wastewater treatment.
                                                                               Enclosure
                                                                                 Page 1

        Response by the Inspector General of the Department of the Treasury
     Request for Information Regarding the Department of the Treasury’s Efforts to
                        Address the Effects of Climate Change


Part 1of Request from Bicameral Task Force on Climate Change

(1) Identify the existing requirements in legislation, regulation, executive order, and
other directives that apply to [the Department of the Treasury (Treasury)]

We identified the following requirements to address climate change applicable to
Treasury in statute, executive order, implementing guidance, and Treasury policy.

      •   The Energy Independence and Security Act of 2007 3 (EISA) governs the
          initiative to move the nation toward energy independence and security. Goals
          include (1) increasing the production of clean renewable fuel sources;
          (2) protecting consumers; (3) increasing the efficiency of products, buildings,
          and vehicles; (4) promoting research on and deploy greenhouse gas capture
          and storage options; and (5) improving the energy performance of the federal
          Government.

      •   Executive Order (E.O.) 13514, Federal Leadership in Environmental, Energy,
          and Economic Performance, issued October 5, 2009, directed federal
          agencies to reduce greenhouse gas emissions, improve energy and water
          performance, and leverage federal purchasing power to foster sustainable
          clean energy technologies and environmentally-responsible products. Specific
          to adapting to climate change, Section 8.(i) of E.O. 13514 requires that
          federal agencies “evaluate agency climate-change risks and vulnerabilities to
          manage the effects of climate change on the agency’s operation and mission
          in both short and long term.”

      •   Federal Agency Climate Change Adaptation Planning Implementing
          Instruction issued by the Chair of the Council on Environmental Quality
          (CEQ) on March 4, 2011, required that federal agencies establish an agency
          climate change adaptation policy statement and plan.

      •   Policy Statement for Climate Change Adaptation, issued by Treasury on
          June 28, 2012, established a Treasury-wide directive to integrate climate
          change adaptation planning and actions into agency programs, policies, and
          operations. In its policy, Treasury requires bureaus to (1) analyze how
          climate change may impact their ability to achieve respective missions,


3
    Pub. L. No. 110-140
                                                                            Enclosure
                                                                              Page 2

     Response by the Inspector General of the Department of the Treasury
  Request for Information Regarding the Department of the Treasury’s Efforts to
                     Address the Effects of Climate Change


      policies, programs, and operational objectives; (2) identify areas where
      budget adjustments and legal analysis would be necessary to carry out
      actions identified under the policy; and (3) coordinate with the Treasury
      Climate Change Adaptation Work Group which oversees and coordinates
      agency-wide climate change adaptation planning and implementation.

(2) Assess whether [Treasury] is meeting these requirements

We concluded that Treasury has met the requirements addressing climate change
set forth in EISA, E.O. 13514, CEQ guidance, and Treasury policy. Specifically,
Treasury issued the Treasury Strategic Sustainability Performance Plan
(Sustainability Plan) which includes the Climate Change Adaptation Plan: U.S.
Department of the Treasury (Adaptation Plan) in June 2012.

In the Sustainability Plan, Treasury addressed its efforts to achieve environmental,
economic, and energy goals mandated in E.O. 13514 and prioritized actions based
on a positive return on investment. Treasury also provided information in the
Adaptation Plan in response to CEQ’s implementing guidance which included
developing an overarching policy statement about climate change, answering the
guiding questions for high level vulnerability assessment, and providing details on
current adaptation planning and implementation progress.

(3) If [Treasury] is not fully meeting the requirements, make recommendation for
improving its performance

Based on our review, we have no recommendations for Treasury. We do want to
caution that while Treasury has undertaken actions that are consistent with
applicable statute, executive order, and implementing guidance for addressing
climate change, we cannot provide assurance as to future compliance with these
requirements or the effectiveness of its actions. That said, as part of our annual
audit planning process, we will consider including periodic reviews of Treasury’s
progress in this important area.

Part 2 of Request from Bicameral Task Force on Climate Change

(1) The authorities the [Treasury] has to reduce emissions of heat-trapping pollution

We identified authorities applicable to Treasury in Part 1 of this request. We did not
identify any other authorities Treasury may exercise to reduce emissions from heat-
                                                                           Enclosure
                                                                             Page 3

     Response by the Inspector General of the Department of the Treasury
  Request for Information Regarding the Department of the Treasury’s Efforts to
                     Address the Effects of Climate Change


trapping pollution beyond its internal operations in the United States. We do want
to note that Treasury receives appropriation authority to fund programs outside the
United States through the Multilateral Development Banks and other international
programs such as the Climate Investment Fund and Global Environment Facility.
According to a Treasury official, some of these investments are intended to support
global mitigation benefits which indirectly help the United States.

(2) Authorities to make the nation more resilient to the effects of climate change,

As noted in our response above, there were no authorities separate from those
identified in Part 1 of this request and the appropriation authority to fund
Treasury’s international programs. We noted that CEQ recommended key steps for
agencies to take to foster a common agenda of building a more resilient nation in
its Progress Report of the Interagency Climate Adaption Task Force: Recommended
Actions and Support of a National Climate Change Adaptation Strategy (CEQ
Progress Report), issued in October 2010. Treasury has begun to address CEQ’s
recommended next steps consistent with requirements set forth in the E.O. 13514
as well as CEQ’s implementing guidance, which Treasury is in compliance with to
date. That is, Treasury issued the Sustainability Plan and Adaption Plan and has
reported progress on the actions called for in these documents. For example,
Treasury reported greenhouse gases (GHG) emission reductions of 20 percent for
Scopes 1 and 2 and 8.5 percent for Scope 3, which are on track with targeted
GHG emission reductions of 33 percent for Scopes 1 and 2 and 11 percent for
Scope 3 by fiscal year 2020. Treasury also reported a 61 percent reduction in fleet
petroleum use, already surpassing its fiscal year 2015 goal of 20 percent.
Additionally, Treasury reported efforts to address climate change in its Adaptation
Plan which include refining incident command and continuity of operations plans,
increasing use of telework and flexible workspace, and providing emergency
electricity generators and back up batteries to power key installations.

(3) The most effective additional steps [Treasury] could take to reduce emissions or
strengthen resiliency

Treasury officials we interviewed did not offer any additional steps that Treasury
could take to reduce emissions or strengthen resiliency outside the recommended
next steps in the CEQ Progress Report. Based on our review and understanding of
Treasury’s missions and authorities, we did not separately identify additional steps
that Treasury should be taking at this time.
